IN THE SUPREME COURT OF THE UNITED STATES
No.

EDWARD F. SADJADI and CYNTHIA M. SADJADI
Petitioners, Pro Se
vs.
COMMISSIONER OF INTERNAL REVENUE,
Respondent.

CERTIFICATE OF SERVICE

I HEREBY CERTIFY that a copy of the foregoing has been served upon counsel
for all parties to this proceeding as identified below by US Postal Service Priority
Mail:
Julie C. Avetta
PO Box 502
Washington, DC 20044
Telephone: (202) 616-2743
Attorney for Respondent/Appellee
I further certify that all parties required to be served have been served.

Austin, Texas, this 5th day of October 2020.

EDWARD F. SADJADI
12407 Altamira Street
Austin, TX 78748

